IN THE SUPREME COURT OF THE UNITED STATES
:
ARIZONA LIBERTARIAN PARTY, et al., :
:
Petitioners,
:
:
v.
:
:
KATIE HOBBS, in her official capacity as :
Secretary of State of Arizona
:
:
Respondent.
:

9th Cir. No. 17-16491

PETITIONERS’ APPLICATION TO JUSTICE KAGAN TO EXTEND THE TIME FOR
FILING A PETITION FOR WRIT OF CERTIORARI BY 60 DAYS
Pursuant to Supreme Court Rule 13.5, and for good cause, Petitioners Libertarian Party of
Arizona and Michael Kielsky (the “Libertarians”) respectfully request that the Court extend their
time to file a petition for writ of certiorari in the above-captioned matter by 60 days, until
December 8, 2019. In support of this motion, the Libertarians state as follows:
1.

The judgment of the Court of Appeals for the Ninth Circuit was entered on May 31,

2019, and its order denying the Libertarians’ petition for rehearing or rehearing en banc was
entered on July 11, 2019. The Libertarians seek review of that judgment and order. This Court
has jurisdiction pursuant to 28 U.S.C. § 1254(1).
2.

Pursuant to Supreme Court Rule 13.1, the deadline for filing the Libertarians’

petition for a writ of certiorari is October 9, 2019. This motion for an extension of that deadline by
60 days, until December 8, 2019, is timely because it is filed 10 days before the date the petition
is due.
3.

This case involves a challenge to the constitutionality of Arizona’s statutory scheme

1

governing ballot access.

As applied, the challenged provisions impose burdens upon the

Libertarians that greatly exceed the constitutional limits established by this Court’s ballot access
jurisprudence. The Court of Appeals nevertheless affirmed the District Court’s decision upholding
the constitutionality of Arizona’s statutory scheme by relying on a novel legal standard that
conflicts with the legal standard this Court has uniformly applied in deciding ballot access cases.
4.

The decision of the Court of Appeals reflects a confusion among the lower courts

as to the proper legal standard to apply when analyzing the constitutionality of ballot access
statutes. The Libertarians seek an extension of time to file a petition for a writ of certiorari because
it will allow them adequate time to conduct the legal research necessary to demonstrate that lower
courts are divided with respect to this issue, and to prepare a petition for certiorari demonstrating
that this case is an appropriate vehicle for the Court to decide the issues it raises.
5.

The undersigned counsel is the Libertarians’ lead counsel in this matter. The

undersigned counsel is also lead counsel in several other cases pending in federal courts. See Gill
v. Scholz, No. 19-1125 (7th Cir.); Miller v. Doe, No. 1:19-cv-00700 (W.D. Tex.); Graveline v.
Johnson, No. 2:18-cv-12354 (E.D. Mich.). In that capacity, during the pendency of the period for
filing a petition for certiorari in this matter, the undersigned counsel has: (1) prepared an appellate
brief for filing in Gill; (2) prepared an opposition to a motion to dismiss and a motion for
preliminary injunction in Miller; and (3) prepared opening, opposition and reply briefs on crossmotions for summary judgment in Graveline. Due to these obligations, and others, the undersigned
counsel has not had adequate time to devote to the preparation of a petition for certiorari in this
matter. Good cause therefore exists for the Court to grant the requested extension of time.

6.

Accordingly, the Libertarians respectfully request that the Court extend their time

for filing a petition for writ of certiorari by 60 days, until December 8, 2019.
Dated: September 30, 2019

Respectfully submitted,

/s/Oliver B. Hall
Oliver B. Hall
D.C. Bar. No. 976463
CENTER FOR COMPETITIVE DEMOCRACY
P.O. Box 21090

Washington, D.C. 20009
(202) 248-9294 (ph)
oliverhall@competitivedemocracy.org
Counsel for Petitioners

3

CERTIFICATE OF SERVICE
I certify that on September 30, 2019, I caused the foregoing Application to Justice Kagan
to Extend the Time for Filing a Petition for Writ of Certiorari By 60 days to be served, by First
Class mail, on the following:
Kara M. Karlson
Assistant Attorney General
Attorney General of Arizona
2005 N. Central Ave.
Phoenix, AZ 85004
(602) 542-3333 (Phone)
(602) 542-8308 (fax)
Counsel for Respondent

/s/Oliver B. Hall______________________
Oliver B. Hall

